           Office of Audits
           Office of Inspector General
           U.S. General Services Administration




           Improving the Telecommunications
           Order and Invoice Processing Could
           Benefit Customers of the
           Federal Acquisition Service’s
           Network Services Division,
           Pacific Rim Region
           Report Number A120164/Q/9/P14005
           September 29, 2014




A120164/Q/9/P14005
                      Office of Audits
                      Office of Inspector General
                      U.S. General Services Administration


                                   REPORT ABSTRACT
OBJECTIVE                  Improving the Telecommunications Order and Invoice Processing
 To determine whether      Could Benefit Customers of the Federal Acquisition Service’s
 the Network Services      Network Services Division, Pacific Rim Region
 Division, Pacific Rim     Report Number A120164/Q/9/P14005
 Region (Division) is      September 29, 2014
 processing                WHAT WE FOUND
 telecommunication         We identified the following during our audit:
 orders and invoices for   Finding 1 – The Division is not ensuring customer telecommunication orders
 federal customers in an   and billings are accurate, resulting in financial reporting inaccuracies.
 accurate and timely       Finding 2 – The Division’s delay in transitioning customers’
 manner.                   telecommunication orders is a missed opportunity for maximizing savings.
                           Finding 3 – The Division’s invoices lack transparency which limits customers’
                           ability to identify administrative surcharge fees.
                           WHAT WE RECOMMEND
                           We recommend the Acting Regional Commissioner of the Federal Acquisition
                           Service, Pacific Rim Region:
                           1. Improve coordination and communication with the Financial Services
                              Center by identifying, prioritizing, and resolving inventory and billing
                              variances.
                           2. Perform monthly reconciliations of significant variances between
                              Telecommunications Order and Pricing System and Telecom Invoice
                              Management System by assigning adequately trained Division personnel.
                           3. Update and adhere to planned timelines and assign trained personnel to
                              transition customer accounts to the local services acquisition contract.
                           4. Identify and address challenges faced in the current transition process in
                              preparation for the next local services acquisition contract to avoid
                              lengthy delays and lost opportunity savings.
                           5. Develop planning guidance to ensure timely transition of customers to the
                              next local services acquisition contract.
Pacific Rim Region         6. Disclose on GSA customer invoices itemized costs associated with the
Audit Office (JA-9)           Division’s administrative surcharge fees or provide these fees as an
450 Golden Gate               attachment to the invoice.
Avenue                     MANAGEMENT COMMENTS
Room 7-5262                The Acting Regional Commissioner of the Federal Acquisition Service,
                           Pacific Rim Region concurred with our recommendations. Management’s
San Francisco, CA
                           comments can be found in their entirety in Appendix C.
94102
(415)522-2744




     A120164/Q/9/P14005                          i
                   Office of Audits
                   Office of Inspector General
                   U.S. General Services Administration

 DATE:             September 29, 2014
 TO:               Tiffany Hixson
                   Acting Regional Commissioner
                   Federal Acquisition Service (9Q)



 FROM:             Perla Corpus
                   Audit Manager
                   Pacific Rim Region Audit Office (JA-9)
 SUBJECT:          Improving the Telecommunications Order and Invoice Processing
                   Could Benefit Customers of the Federal Acquisition Service’s
                   Network Services Division, Pacific Rim Region
                   Report Number A120164/Q/9/P14005

This report presents the results of our audit of the telecommunications order and invoice
processing at the Network Services Division. Our findings and recommendations are
summarized in the Report Abstract. Instructions regarding the audit resolution process
can be found in the email that transmitted this report.

Your written comments to the draft report are included in Appendix C of this report.

If you have any questions regarding this report, please contact me or any member of the
audit team at the following:
Perla Corpus         Audit Manager     Perla.Corpus@gsaig.gov     (415) 522-2733
Joseph Eom           Auditor-In-Charge Joseph.Eom@gsaig.gov       (415) 522-2731
Sanford Weitzner     Auditor           Sanford.Weitzner@gsaig.gov (415) 522-2749

On behalf of the audit team, I would like to thank you and your staff for your assistance
during this audit.




A120164/Q/9/P14005                          ii
Table of Contents

Introduction .............................................................................................................. 1


Results
Finding 1 – The Division is not ensuring customer telecommunication orders and
            billings are accurate, resulting in financial reporting inaccuracies. .......... 3
                 Recommendations 1 and 2...................................................................... 5
                 Management Comments ......................................................................... 5
Finding 2 – The Division’s delay in transitioning customers’ telecommunication
            orders is a missed opportunity for maximizing savings............................ 5
                 Recommendations 3, 4, and 5 ................................................................. 8
                 Management Comments ......................................................................... 8
Finding 3 – The Division’s invoices lack transparency which limits customers’ ability
            to identify administrative surcharge fees ................................................. 8
                 Recommendation 6 ................................................................................. 9
                 Management Comments ......................................................................... 9
Other Observations .................................................................................................... 9


Conclusion.............................................................................................................. 11

Appendixes
Appendix A – Purpose, Scope, and Methodology ............................................ A-1
Appendix B – Calculating Maximum Opportunity Savings .............................. B-1
Appendix C – Management Comments .............................................................. C-1
Appendix D – Report Distribution ....................................................................... D-1




A120164/Q/9/P14005                                             iii
Introduction
The Network Services Division (the Division) assists customer agencies on a broad
range of telecommunication solutions/services. The Division’s goal is to obtain the
lowest aggregate prices for these services through local services acquisition contracts
and other acquisition vehicles. 1 The Division consists of a director, two branch chiefs
and staff members who ensure customers receive requested telecommunication
services. In addition, the Division works in partnership with the Federal Acquisition
Service Financial Services Center (the Center) to identify quantities and rate
discrepancies.

Inventory and billing systems used to track customer orders include the
Telecommunications Ordering and Pricing System (TOPS) and the Telecom Invoice
Management (TIM) system, respectively. 2

The Division uses TOPS to manage the telecommunications services inventory. TOPS
captures the following customer service actions:

       •   Service inventories;
       •   Orders for new lines, line features, directory listings, or special services;
       •   Disconnects, changes, or moves to telephone lines or features;
       •   Detailed telecommunications billing information; and
       •   Invoice reconciliations of telecommunications’ inventories.

The Center enters data quantities and rates into the TIM system to manage and support
the invoice reconciliation process. TIM primarily allows the Center to:

       •   Provide relevant financial reports;
       •   List vendor invoice data; and
       •   Identify inventory discrepancies.

With TIM designed to interface with TOPS, discrepancies between the two databases
are captured in a monthly report. This report compares TOPS customer’s inventory
data to each customer’s billing information. Discrepancies deemed significant are
electronically forwarded to the Division. The Division is required to make adjustments to
TOPS to resolve discrepancies or variances identified by the Center. Reconciling
differences between TOPS and TIM on a monthly basis may preclude recurring
discrepancies, reduce inventory and billing errors, and improve financial reporting.

The Division is transitioning customers’ monthly telecommunication services in
California to a local services acquisition contract, awarded on April 1, 2011. The


1
 Local services acquisition contracts are used to procure regional telecommunication services.
2
 TOPS and TIM are interfacing database systems managed by the Center in Atlanta, Georgia. We
evaluated the process for billing and inventory, not the accuracy of the database amounts.


A120164/Q/9/P14005                               1
transition involves customers whose services are provided through tariff agreements 3 or
the bridge contract. 4 The deadline to complete the transition for customers under the
bridge contract was May 1, 2014. 5

A total of 64,279 telephone lines, grouped into 116 system codes, with 678 contract
agreements had to be transitioned from the bridge contract and/or tariff agreements to
the awarded local services acquisition contract. 6 To transition existing services to a
new local services acquisition contract, area telecommunication managers must allow
competition for these existing services. 7

The Center is tasked with entering vendor invoices into TIM, which results in an
administrative cost. The Center allocates its administrative costs to the regional offices
based on the number of contract agreements. These costs are subsequently passed on
to Division customers. If the region reduces the number of contract agreements costs
can be reduced; the more timely the reductions, the more savings achieved.

Our objective was to determine whether the Division is processing telecommunication
orders and invoices for federal customers in an accurate and timely manner.

See Appendix A – Purpose, Scope, and Methodology for additional details.




3
 A tariff agreement is an alternative to a local services acquisition contract in purchasing
telecommunication services. Depending on the service location, a public utility company sets the tariff
rates charged to the customer agency. Generally, tariff agreement rates are higher than rates awarded
under a local services acquisition contract.
4
 The bridge contract uses the same telecommunication rates under the prior California local services
acquisition contract that expired on May 1, 2011. Without a bridge contract in place, customer agencies
will pay the higher priced rates under tariff agreements.
5
 The bridge contract was not extended beyond May 1, 2014.
6
 The Division assigns a system code based on a geographical location. Within a system code, a contract
agreement is established between the Division and customer agencies for recurring telecommunication
services. A vendor invoice is generated for each contract agreement.
7
 The regional acquisition operations division is responsible for the competitive procurement process. The
process involves sending a request for quote, evaluating all proposals, and awarding the contract.


A120164/Q/9/P14005                                 2
Results
Finding 1 – The Division is not ensuring customer telecommunication orders and
billings are accurate, resulting in financial reporting inaccuracies.

The Division is not ensuring customer telecommunication orders and billings are
accurate because it is not resolving discrepancies between TOPS inventories and TIM
billing systems. Consequently, payments to contractors may be inaccurate, which in
turn affects the accuracy of financial reporting. The Office of Management and Budget
(OMB) and the General Services Administration (GSA) issued guidance that requires
reconciliations to ensure the accuracy of customer accounts and financial reporting.

We noted variances totaling $1.76 million between the two database amounts for fiscal
year 2012. 8 For the first 6 months of fiscal year 2013, the variance was approximately
$1.05 million as shown in Figure 1. In October 2012, for example, we noted 46
variances over $1,000 each.

                Figure 1 – Variances between TOPS and TIM Databases
                       From October 1, 2012, to March 31, 2013


                                Billing Period            Variance
                                (Month Year)              Amount

                                 October 2012                $215,085
                                November 2012                $290,570
                                December 2012                $212,075
                                 January 2013                $134,020
                                February 2013                $123,142
                                  March 2013                  $73,560
                                           TOTAL           $1,048,452

The Center is required to meet prompt payment requirements designed to ensure that
federal agencies pay contractors in a timely manner. Since the Division is not resolving
or disputing variances, the Center is processing invoices for payment without
adjustments. Consequently, GSA may be paying its telecommunication vendors for
services not provided or erroneously invoiced.

In Figure 2 on the following page, the data was extracted from the Center’s Discrepancy
Report and lists the most significant differences (positive and negative line items) for
various system codes during the period October 1, 2012, through March 31, 2013.




8
 The variance represents the absolute value between TOPS (inventory) and TIM (billing systems) for
each individual contract agreement.


A120164/Q/9/P14005                                3
    Figure 2 – Examples of System Codes with the Most Significant Differences
                  From October 1, 2012, through March 31, 2013


             System      Billing Period          TIM          TOPS
              Code                            Amount*        Amount*        Difference
                                                 (a)            (b)        (c) = (a) - (b)
               995     November 2012          $39,406           $0            $39,406
               968     March 2013             $28,903         $6,352          $22,551
               94J     December 2012          $14,669           $770          $13,899
               904     February 2013          $45,721        $32,370          $13,351
               98B     October 2012           $45,356        $32,632          $12,724
               904     January 2013           $43,316        $32,496          $10,820
               904     December 2012          $42,993        $32,564          $10,429
               98B     December 2012          $42,636        $32,632          $10,004
               904     November 2012          $41,810        $32,651           $9,159
               905     October 2012             $8,891          $0             $8,891
               99N     November 2012         <$15,451>       $21,996        <$37,447>
                   9
               975     October 2012            $2,822        $25,422        <$22,600>
               975     December 2012           $2,822        $24,750        <$21,928>
               975     November 2012           $2,822        $24,728        <$21,906>
               99N     February 2013           $3,693        $21,996        <$18,303>
               921     October 2012            $5,544        $13,530         <$7,986>
               921     November 2012           $5,551        $13,530         <$7,979>
               921     December 2012           $5,551        $13,530         <$7,979>
                   9
               975     October 2012            $1,265         $9,001         <$7,736>
               95A     October 2012            $1,555         $8,336         <$6,781>
            *Unaudited Amounts

To resolve variances, the Center sends significant monthly discrepancies to the Division
mailbox for further action. 10 According to the Division Director, resolution of variances
was not worth allocating resources because of the low dollar amounts. Furthermore,
the Director assigned only one area telecommunication manager to resolve them. In
addition, despite the Center’s offer to provide in-house training for the mailbox
resolution process, Division management did not allocate time for the assigned area
telecommunication manager to receive formal training. To ensure quantities and rate
variances are resolved, improved coordination and communication is needed between
the Division and the Center.

To comply with OMB and GSA guidance, the Division must timely resolve monthly
inventory and billing discrepancies. OMB Circular A-123 requires accurate financial
reporting as an internal control objective. Requirements to reconcile interfacing
databases, such as TOPS and TIM, were also addressed in a GSA memorandum,
dated December 12, 2006, from the Chief Financial Officer (CFO). In addition, GSA
Order 4260.2 P CFO Manual, Volume 2, Financial Reporting Requirements, states that

9
 These system codes in the same month are not duplicative because they are unique transactions
representing different contract agreements.
10
  The Center’s definition of significant discrepancies is based upon a percentage variance rather than
dollar amount.


A120164/Q/9/P14005                                4
the objective of financial reporting is to provide management with timely and accurate
financial information for making sound business strategic decisions.

Recommendations 1 and 2

We recommend the Acting Regional Commissioner of the Federal Acquisition Service,
Pacific Rim Region:

1. Improve coordination and communication with the Financial Services Center by
   identifying, prioritizing, and resolving inventory and billing variances.
2. Perform monthly reconciliations of significant variances between TOPS and TIMS by
   assigning adequately trained Division personnel.

Management Comments

The Acting Regional Commissioner of the Federal Acquisition Service, Pacific Rim
Region concurred with our recommendations and responded that action has been taken
to address them. Management’s written comments to this report are included in their
entirety as Appendix C.

Finding 2 – The Division’s delay in transitioning customers’ telecommunication
orders is a missed opportunity for maximizing savings.

The Division is not transitioning existing customer telecommunication services to the
local services acquisition contract, i.e., LSA II, in a timely manner due to the lack of
planning, which includes prioritizing a Central Office project over regional projects, and
inadequate resource allocation. As a result, Division customers, especially those under
tariff agreements, are not able to benefit from the lower priced rates offered in the LSA II
contract. Additionally, the Region could have incurred lower administrative costs
through consolidation if the transition to the LSA II contract was timely completed.

Between the award of the LSA II contract on April 1, 2011, and December 31, 2012, the
Division had transitioned only 26 of the 116 system codes (or 22 percent). For 24 of 26
system codes that transitioned from tariff agreements to the LSA II contract, the Division
missed an opportunity to maximize savings of nearly $576,000 for its customers (see
Figure 3 on the following page). 11




11
  The $576,000 represents the maximum savings that could have been realized had the Division
transitioned the 24 system codes for the 21-month period beginning on the contract award date of
April 1, 2011.


A120164/Q/9/P14005                             5
                            Figure 3 – Maximum Opportunity Savings
                                   Due to Untimely Transition
                                     as of December 31, 2012


                               Months Elapsed             Monthly         Maximum
                  System       since Contract             Pricing        Opportunity
                   Code          Award Date              Difference       Savings
                                                             12

                                       (a)                  (b)     (c) = (a) x (b)
                     911               7.69 13                 $334         $2,568
                     927              17.42                    $557         $9,703
                     929              11.47                    $823         $9,440
                     930              18.05                    $378         $6,823
                     932              15.81                  $2,354       $37,217
                     934              15.88                  $3,476       $55,199
                     937              20.22                    $328         $6,632
                     948              18.64                     $34           $634
                     949              19.00                    $546       $10,374
                     950              19.00                    $106         $2,014
                     958              12.76                    $161         $2,054
                     962              19.00                  $8,482      $161,158
                     98B               8.02                    $246         $1,973
                     90A              20.38                  $1,201       $24,476
                     90B              16.70                    $381         $6,363
                     90E              18.61                    $718       $13,362
                     91D              12.76                    $177         $2,259
                     94G              20.12                    $477         $9,597
                     94Q              16.57                  $4,460       $73,902
                     95C              13.05                  $2,893       $37,754
                     95E              19.07                  $1,324       $25,249
                      95I             20.71                  $1,717       $35,559
                     97M              19.23                  $1,079       $20,749
                     97S              16.01                  $1,305       $20,893
                                                            TOTAL        $575,952

For the remaining 90 system codes, we estimate lost savings of $1.95 million by
multiplying the actual savings per line to the number of lines not yet transitioned. The


12
  We calculated the difference in pricing for customers transitioning from the bridge contract and/or tariff
accounts to the LSA II contract.
13
  To calculate months elapsed, we determined total days from the LSA II award date of April 1, 2011, to
the completed transition date, then converted the total days to months. For example, under system code
911, total days to complete transition was 234 days (from April 1 to November 21, 2011), which equates
to 7.69 months (234 days x 1 year/365 days x 12 months/1 year).


A120164/Q/9/P14005                                   6
Division should focus its efforts in transitioning customers under the higher priced tariff
agreements. For details, see Appendix B.

The Division could have reduced administrative costs had the transition to the LSA II
contract been more timely. For fiscal year 2012, the Center’s total administrative costs
were over $6 million, of which 22 percent (or $1.3 million) was allocated to the Division.
The Center’s personnel stated that the Pacific Rim Region paid the most in reimbursing
the Center’s costs compared to other regions. The bulk of administrative costs included
entering contractor invoices into TIM based on contract agreements, which includes
separate tariff agreements and the bridge contract.

To decrease administrative costs, the Division is reducing the number of contract
agreements through consolidation. Prior to the LSA II contract award, the 26 system
codes included 151 contract agreements. Upon completion of the transition to the LSA
II contract, the number of contract agreements will be reduced to 36 (a 76 percent
reduction). The reduction should result in a decrease of administrative costs for the
Center.

There were two primary reasons for the untimely transition to the LSA II contract:
inadequate planning and lack of personnel allocation.

First, the Division lacked adequate planning for its telecommunication projects. From
February 2008 through July 2012, the Division focused its work efforts on a Central
office-directed program. As a result, the majority of the work on the transitioning of
customers’ accounts from the bridge contract and/or tariff agreements to the awarded
LSA II contract on April 1, 2011, was not initiated until May 2012. Further, a branch
chief specializing in transitioning telecommunication accounts was not hired until
May 2012, 13 months after contract award. In August 2012, the branch chief developed
a detailed timeline for the transition process.

Second, the Division did not adequately allocate resources to ensure that the
August 2012 transition plan was achieved. As of December 31, 2012, 17 percent (26 of
151) of the bridge contract agreements had been transitioned to LSA II. Of 14 area
telecommunication managers, 5 were assigned to transitioning customers’ services with
two dedicated to the LSA II contract. Moreover, prior to hiring the branch chief, the two
area telecommunication managers followed different procedures in transitioning
customer accounts.

A Government Accountability Office (GAO) report noted weaknesses in a major GSA
telecommunication transition program. 14 For this particular program involving long
distance service, GAO identified delays resulting from complex acquisition processes,
weak project planning/lack of execution, and unclear management guidance. This long
distance transition project resulted in a 3-year delay. The completion of the LSA II


14
 Government Accountability Office report Telecommunication: GSA Needs to Share and Prioritize
Lessons Learned to Avoid Future Transition Delays, December 2013 (Report Number GAO 14-63).


A120164/Q/9/P14005                           7
transition will also result in a 3-year delay for completion with similar difficulties as those
encountered in the long distance transitioning project.

Although Division management confirmed that there were delays to transition customers
and that it should have been completed sooner, they concluded that customers were
not financially harmed given that the bridge contract was in effect through May 1, 2014.
The untimely transition resulted in lost opportunity savings to Division customers and to
the region. Specifically, the lost savings affected those customers under tariff
agreements that were not transitioned timely to lower rates under the LSA II contract.
Further savings opportunities existed for the Division with a reduction in administrative
costs resulting from consolidating contract agreements.

The LSA II contract, with all options exercised, is due to expire on March 31, 2016. The
Division should begin addressing how to mitigate or avoid the pitfalls encountered in the
transitioning of customer accounts in preparation for award of the next local services
acquisition contract. Therefore, it is imperative for the Division to immediately assess
the challenges it encountered in transitioning customers from either the bridge contract
or tariff agreement to the LSA II and then develop proper planning guidance.

Recommendations 3, 4, and 5

We recommend the Acting Regional Commissioner of the Federal Acquisition Service,
Pacific Rim Region:

3. Update and adhere to planned timelines and assign trained personnel to transition
   customer accounts to the local services acquisition contract.
4. Identify and address challenges faced in the current transition process in preparation
   for the next local services acquisition contract to avoid lengthy delays and lost
   opportunity savings.
5. Develop planning guidance to ensure timely transition of customers to the next local
   services acquisition contract.

Management Comments

The Acting Regional Commissioner of the Federal Acquisition Service, Pacific Rim
Region concurred with our recommendations. In addition, the management response
provided a status on the percentage completion of the transition process for all its
telecommunication customers, which includes California and is addressed on this
report, Hawaii, Arizona, and Nevada. Management’s written comments to this report
are included in their entirety as Appendix C.

Finding 3 – The Division’s invoices lack transparency which limits customers’
ability to identify administrative surcharge fees.

The Division does not provide its customers with itemized invoices.              This lack of
transparency precludes customers from verifying surcharge fees.



A120164/Q/9/P14005                            8
Based on a judgmental sample of customer invoices, the Division is not disclosing two
types of administrative surcharge fees: (1) a fee applied to all customers and (2) an
additional service-related fee applied only to certain customers. In fiscal year 2012, all
regional customers were charged an administrative surcharge fee of 35.38 percent,
which reimburses Division and Central Office administrative costs and is applied to the
total invoiced amount. 15 The second fee or service-related charge is imposed only on
customers with unique, supplemental telecommunication needs, such as a significant
volume of monthly service lines. This charge may vary, but it is applied to the total
invoiced amount. For fiscal year 2013, we calculated an average service-related charge
to Division customers at 22.66 percent. Although the Division’s position is to not
disclose administrative surcharge fees on its invoices, officials stated that the fee
information would be provided to customers if requested. Surcharges could be as much
as 58 percent (35.38 percent plus 22.66 percent). This lack of transparency prevents
customers from knowing the administrative surcharge fees assessed by the Division.

Therefore, the Division should fully disclose all administrative surcharge fees on its
invoices. By providing full disclosure, transparency may be improved by increasing
customers’ ability to verify these surcharge fees.

Recommendation 6

We recommend the Acting Regional Commissioner of the Federal Acquisition Service,
Pacific Rim Region:

6. Disclose on GSA customer invoices itemized costs associated with the Division’s
   administrative surcharge fees or provide these fees as an attachment to the invoice.

Management Comments

The Acting Regional Commissioner of the Federal Acquisition Service, Pacific Rim
Region concurred with our recommendation. However, the response indicated that no
national policy exists to ensure consistency between regional Network Services
Divisions. Management’s written comments to this report are included in their entirety
as Appendix C.

Other Observations

We note an issue that we bring to management’s attention. Although there is no
recommendation, Division management should be aware of our concern regarding a
component in the surcharge.




15
  The surcharge rate can vary each fiscal year depending on the Division’s projected administrative costs
to manage regional telecommunications operations.


A120164/Q/9/P14005                                 9
Since the inception of the telecommunication program, the Division is charging its
customers a planned contribution rate 16 to offset future losses such as the loss of
revenue due to customers no longer requiring Division services in the current year.
According to Division and Center personnel, this projected charge is needed to factor
for contingencies and transferred to a reserve fund. In the Pacific Rim Region, a total of
approximately $2 million was transferred to this reserve fund during the 6-year period
ended September 2012. 17

A GAO report noted that GSA should improve its fee structure. 18 Although the report
did not specifically address Division operations, it recommended that GSA develop and
implement guidance for evaluating current fee rates when an individual program
consistently transfers monies to GSA’s reserve funds. In this instance, the Division,
under the direction of GSA, is including a projected customer contribution rate to benefit
the reserve fund and not its customers.




16
  The planned contribution rate is a component applied in the surcharge calculation along with the
regional and Central office administrative costs addressed in Finding 3.
17
  Network Service Divisions, 11 regions nation-wide, transferred over $170 million during the same
period.
18
  GAO report Interagency Contracting, Improvements Needed in Setting Fee Rates for Selected
Programs, September 2011 (Report Number GAO 11-784).


A120164/Q/9/P14005                             10
Conclusion
The Division is not processing customer telecommunication orders and billings in an
accurate and timely manner. Specifically, the Division is not addressing and resolving
transactions with significant variances identified by the Center, as required. Secondly,
the Division is not transitioning telecommunication accounts timely. Because of these
deficiencies, the Division may not be maximizing customer savings. Furthermore,
Division invoices to customers lack transparency because they do not provide details on
administrative surcharge fees. By providing full disclosure, transparency may be
improved by increasing customers’ ability to verify these surcharge fees.

The Division is not resolving variances between TOPS inventories and TIM billing
systems, which is contrary to OMB Circular A-123 and GSA guidance. To resolve
variances, the Division should address inventory and billing variances with the Center to
identify, prioritize, and resolve material variances. The Division should allocate properly
trained staff to conduct monthly reconciliations and resolve the differences between
TOPS and TIM amounts.

The Division did not transition existing customer telecommunication services to the local
services acquisition contract in a timely manner due to the lack of planning, which
included prioritizing a Central office project over regional projects and inadequate
resource allocation. As a result, opportunity savings of nearly $576,000 were not
realized for 24 of the 26 system codes. For the remaining 90 system codes not yet
transitioned as of December 31, 2012, opportunity savings total nearly $2 million.

To minimize delays in transitioning customer accounts to future local services
acquisition contracts, the Division must first identify and assess problems encountered
during the transition process. Then, the Division should develop a plan with proper
guidance and detailed timelines to avoid similar problems. Through better transition
planning, the Division could achieve telecommunication savings for its customers.




A120164/Q/9/P14005                          11
Appendix A – Purpose, Scope, and Methodology
Purpose

This is the second telecommunications audit included in the Office of Inspector General
Audit Plan for fiscal year 2012. This audit focused on the Federal Acquisition Service,
Network Services Division (the Division), Pacific Rim Region, telecommunications order
and invoice processing. 19

Scope

Our audit primarily focused on the Division’s telecommunication transactions in
California from August through December 2012.

Methodology

To accomplish the audit objective, we:

     •   Reviewed relevant criteria, including the Office of Management and Budget
         Circular and GSA financial management policies;
     •   Interviewed the Division’s regional director, two branch chiefs, and staff
         members;
     •   Interviewed Financial Services Center personnel including the director and
         regional and Central office employees;
     •   Reviewed bridge Contract (Contract Number GSQ0913DLD006) and LSA II
         Contract (GS09Q11DLD7006);
     •   Obtained and analyzed monthly variance reports from the Financial Services
         Center;
     •   Determined the total number of system codes (either under a tariff agreement or
         the bridge contract) that the Division was required to transition to the LSA II
         contract through December 31, 2012;
     •   Obtained documents from the regional Acquisition Operations Division to support
         new and prior telecommunication rates;
     •   Calculated opportunity savings for Division customers that have transitioned from
         a tariff agreement to the LSA II contract based on the award and final transition
         dates;
     •   Estimated lost savings for 90 system codes not yet transitioned to the LSA II
         contract;
     •   Obtained and evaluated Division financial statements; and
     •   Verified administrative surcharges assessed to Division customers.




19
 Telecommunication services offered by the Division are generally managed at the regional level.


A120164/Q/9/P14005                               A-1
Appendix A – Purpose, Scope, and Methodology (cont.)
We conducted the audit from August to December 2012 in accordance with generally
accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objective. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based
on our audit objective.

Internal Controls

The scope of our work was limited to addressing the objective of this audit. Thus, our
assessment and evaluation of internal controls was restricted to those issues identified
in the Results section of this report.




A120164/Q/9/P14005                        A-2
Appendix B – Calculating Maximum Opportunity Savings
We calculated maximum opportunity savings for the 90 system codes not yet
transitioned to the LSA II contract as of December 31, 2012. Our calculation was based
on the remaining 49,640 line count and a savings ratio for the 26 transitioned system
codes as shown below:


    Total Line Count for 116 System Codes                             64,279

    Total Line Count for 26 Transitioned System Codes       a        <14,639>

    Total Line Count for 90 Remaining System Codes          b         49,640

    Total Savings for 26 Transitioned System Codes          c       $575,952

    Total Savings per Line Count                         c/a = d      $39.34

    Maximum Opportunity Savings                          bxd       $1,952,838
    for 90 System Codes                                            =========




A120164/Q/9/P14005                       B-1
Appendix C – Management Comments




A120164/Q/9/P14005      C-1
Appendix C – Management Comments (cont.)




A120164/Q/9/P14005        C-2
Appendix C – Management Comments (cont.)




A120164/Q/9/P14005        C-3
Appendix D – Report Distribution
Commissioner (Q)

Acting Deputy Commissioner (Q1)

Chief of Staff (Q0A)

Controller (BF)

Regional Administrator (9A)

Acting Regional Commissioner, Federal Acquisition Service (9Q)

Acting Deputy Regional Commissioner, Federal Acquisition Service (9Q)

Regional Counsel (LD9)

Network Service Division Director, Federal Acquisition Service (9QTC)

Branch Chief, GAO/IG Audit Response Division (H1C)

Assistant Inspector General for Auditing (JA)

Deputy Assistant Inspector General for Investigations (JID)

Director, Audit Planning, Policy, and Operations Staff (JAO)




A120164/Q/9/P14005                        D-1
